   May 23, 2003




Financial Management

Allegation Concerning Financial
Management at the Civilian
Personnel Management Service
(D-2003-094)




       Office of the Inspector General
                    of the
           Department of Defense

                                   Constitution of
                                  the United States

   A Regular Statement and Account of the Receipts and Expenditures of all public
   Money shall be published from time to time.
                                                              Article I, Section 9
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Inspector
 General of the Department of Defense at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




CPMS                 Civilian Personnel Management Service
DCPDS-Mod            Defense Civilian Personnel Data System-Modernization
DHRA                 Defense Human Resources Activity
DLAMP                Defense Leadership and Management Program
GAO                  General Accounting Office
         Office of the Inspector General of the Department of Defense
Report No. D-2003-094                                                       May 23, 2003
  (Project No. D2002AS-0071)

            Allegation Concerning Financial Management at the
                  Civilian Personnel Management Service

                                Executive Summary

Who Should Read This Report and Why? Managers with financial management and
oversight responsibility for the Civilian Personnel Management Service and its Defense
Leadership and Management Program should read this report because the allegation
concerning inappropriate financial management of that Program was not substantiated.

Background. This audit is in response to an allegation made to the DoD Hotline
concerning funds management for the Defense Leadership and Management Program.
The Civilian Personnel Management Service supports the Under Secretary of Defense for
Personnel and Readiness in planning and formulating civilian personnel programs and
providing policy support, functional information management, and DoD-wide civilian
administrative services for DoD Components. Managed by the Defense Civilian
Personnel Service, the Defense Leadership and Management Program is a DoD-wide
education and training program that prepares mid- and senior-level employees for upward
mobility into targeted executive positions.

Results. The Civilian Personnel Management Service appropriately administered funds
allocated for the Defense Leadership and Management Program. The audit did not
substantiate the allegation that:

           •   approximately $15 million was siphoned from the Defense Leadership and
               Management Program or other programs to fund overruns in the Defense
               Civilian Personnel Data System-Modernization program;

           •   funds were transferred in violation of DoD reprogramming rules and
               without congressional knowledge, at the direction of the Director, Civilian
               Personnel Management Service;

           •   the Defense Leadership and Management Program had not received the
               funds appropriated by Congress; and

           •   the Civilian Personnel Management Service provided incorrect
               information in response to a General Accounting Office inquiry on the use
               of Defense Leadership and Management Program funds.

Management Comments. We provided a draft of this report on April 23, 2003. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              1

Finding
     Management of Funds at the Civilian Personnel Management Service   2

Appendixes
     A. Scope and Methodology                                           7
         Prior Coverage                                                 7
     B. Report Distribution                                             8
Background
    This audit was performed in response to an allegation containing four specific
    issues made to the DoD Hotline concerning financial management at the Civilian
    Personnel Management Service (CPMS).

    Allegation. The complainant alleged that approximately $15 million was
    “siphoned off” from the Defense Leadership and Management Program
    (DLAMP) or other programs to fund overruns in the Defense Civilian Personnel
    Data System-Modernization (DCPDS-Mod) Program, which is also managed by
    the CPMS. The complainant also stated that funds were “transferred in violation
    of DoD reprogramming rules and without congressional knowledge,” that the
    DLAMP had not received the “appropriate allocated funds for which Congress
    intended,” and that CPMS “provided incorrect information to the General
    Accounting Office (GAO) regarding the use of CPMS funds.”

    Defense Human Resources Activity. The Defense Human Resources Activity
    (DHRA) is a DoD Field Activity under the authority, direction, and control of the
    Under Secretary of Defense for Personnel and Readiness. The purpose of the
    DHRA is to promote greater oversight and flexibility in overseeing and
    coordinating the work of several organizations that directly administer personnel
    policies, maintain comprehensive databases, and provide a variety of education
    and research programs. One of the major components of the DHRA is the CPMS.

    Civilian Personnel Management Service. The CPMS provides civilian
    personnel policy support, functional information management, and civilian
    personnel administrative services to the DoD Components and their
    organizations. The CPMS is responsible for managing the DLAMP. The
    DLAMP is a DoD-wide education and training program that prepares mid- and
    senior-level employees for upward mobility into targeted executive positions.


Objectives
    The audit objective was to determine whether funding for the Defense Civilian
    Personnel Data System was managed by the Civilian Personnel Management
    Service in accordance with statutory and DoD regulatory requirements. We did
    not review the management control program as it related to the overall objective
    because the audit scope was limited to the DoD Hotline allegation of funds
    management. See Appendix A for a discussion of the audit’s scope and
    methodology.




                                        1
           Management of Funds at the Civilian
           Personnel Management Service
           We did not substantiate the allegation submitted to the DoD Hotline
           concerning inappropriate funds management at the CPMS. Specifically,
           we did not substantiate that approximately $15 million was transferred
           from the DLAMP or other programs to fund overruns in the DCPDS-Mod
           program; that funds were transferred in violation of DoD reprogramming
           rules and without congressional knowledge, and that DLAMP had not
           received the appropriate allocated funds. Additionally, we did not
           substantiate that the CPMS provided incorrect information to an inquiry
           from the GAO on the use of DLAMP funds. The results and
           accompanying data for the allegation appear below.


Flow of Funding
    The Assistant Director of DHRA stated that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer allocates Operations and Maintenance
    funds to the Defense Logistics Agency, which sub-allocates the funds to the
    DHRA and its components. Operations and Maintenance funds allocated to the
    DHRA are usually general use, non-directed funds. Operations and Maintenance
    funds sub-allocated to CPMS are categorized into two budget activities to which
    funds are further sub-allocated. The budget activities are Training and
    Recruiting, which includes the DLAMP, and Administrative and Service-wide
    support, which includes the DCPDS-Mod program.


Movement of Funds
    Allegation. Approximately $15 million was siphoned from the DLAMP or other
    programs to fund overruns in the DCPDS-Mod program.

    Audit Results. We did not substantiate the allegation that funds were
    inappropriately transferred from the DLAMP or another program to fund cost
    overruns in the DCPDS-Mod program. Because the allegation did not specify
    when the inappropriate fund transfer occurred, using budgetary records obtained
    from CPMS, DHRA, and the DoD Comptroller, we concentrated our review on
    DLAMP and DCPDS-Mod program funding for FY 2000, FY 2001, and FY
    2002.

            DLAMP. For FYs 2000 through 2002, we did not substantiate
    unauthorized movement of funds from the DLAMP to the DCPDS-Mod program.
    As reflected in Table 1, the initial DLAMP budget for each fiscal year was
    adjusted. We reviewed the adjustments to DLAMP budgets and determined that
    all changes were appropriately authorized through Program Budget Decisions,
    Funding Authorization Documents, or the CPMS internal reprogramming of
    funds. In the case of DLAMP, Program Budget Decisions normally affected the


                                        2
    budgets of multiple DoD organizations over several years, often implemented
    congressional mandates, and were usually approved by high-level DoD officials,
    such as the Deputy Secretary of Defense. In contrast, Funding Authorization
    Documents usually affected the budget of a single or few DoD organizations
    during a single fiscal year, usually implemented single financial issues decided
    upon by Congress or DoD, and were usually approved at the DoD Comptroller or
    DoD Component Comptroller level. The internal reprogramming of funds was at
    the prerogative of the senior manager of a DoD organization, and was limited to a
    single year.

                      Table 1. DLAMP Budget Adjustments
                                 (in millions)

                                              FY 2000 FY 2001 FY 2002

       Initial Budget                           $41.9      $48.2      $54.6
       Adjustments made through:
         Program Budget Decisions                 (5.7)     ( 2.7)      (4.4)
         Funding Authorization Documents           (.1)       (.1)     (18.4)
         Internal CPMS Reprogramming                 0          0       (4.7)

       Final Budget                             $36.1      $45.4      $27.1


    Other Programs. We also did not substantiate that unauthorized funds were
    moved to the DCPDS-Mod program from other programs. We reviewed all
    increases to the DCPDS-Mod program funding authority that were $100,000 or
    more from FY 2000 through FY 2002. With one exception, either a Program
    Budget Decision or a Funding Authorization Document authorized additions to
    the original DCPDS-Mod program budget. The exception was the internal
    reprogramming of funds from DLAMP to the DCPDS-Mod program in July 2002
    in the amount of $4.7 million.


Reprogramming Actions
    Allegation. Funds were transferred in violation of DoD reprogramming rules and
    without congressional knowledge at the direction of the Director, CPMS.
    Additionally, the DLAMP did not receive the appropriate allocated funds
    intended by Congress.

    Audit Results. We did not substantiate either issue. We concluded that DoD
    reprogramming procedures were not applicable to the one instance in which
    CPMS transferred funds from DLAMP to the DCPDS-Mod program in July 2002.
    Additionally, we found no indication that the DLAMP did not receive the level of
    funding intended by Congress.



                                        3
Reprogramming of Funds. We found no evidence that CPMS management
reprogrammed or otherwise moved funds from DLAMP to another CPMS
program until July 2002, or about 7 months after the allegation was made.
Reprogramming is the transfer of funds between program elements and line items
within an appropriation for purposes other than those contemplated at the time of
appropriation. Congress recognizes the practice of reprogramming DoD funds as
a necessary, desirable, and timely device for achieving flexibility in the execution
of DoD programs. For example, the House of Representatives Report 107-298,
“Report of the Committee on Appropriations,” November 19, 2001, directed that
proposed transfers of funds of more than $15 million between Operations and
Maintenance budget activities be subject to normal prior approval reprogramming
procedures.

DoD reprogramming procedures and requirements, including those for obtaining
the prior approval of congressional committees for reprogramming actions, are set
forth in the DoD Financial Management Regulation. The DoD Financial
Management Regulation requires prior congressional approval for reprogramming
actions that affect an item that is known to be or has been designated a matter of
special interest to one or more of the congressional committees. It also requires
prior congressional approval for reprogramming actions that provide a cumulative
increase of $15 million or more in an Operations and Maintenance budget
activity. The congressional committee reports did not identify the DLAMP
program as a special interest item. Further, the July 2002 DLAMP
reprogramming totaled only $4.7 million. Accordingly, we concluded that the
internal transfer by CPMS of DLAMP funds to the DCPDS-Mod program did not
violate DoD reprogramming procedures and did not require congressional
notification.

DLAMP Funding Intended by Congress. We found no evidence that Congress
exempted DLAMP from budget reductions. When Congress wants to ensure that
a program, such as DLAMP, receives all funds appropriated, the congressional
committee or conference reports will identify the appropriation item with the
phrases “only for” or “only to” to indicate that the appropriation is limited to a
particular purpose. We did not identify such language in the congressional
committee or conference reports related to appropriations for DLAMP.
For the FY 2002 DLAMP funds, Public Law 107-117, dated January 10, 2002,
“Department of Defense and Emergency Supplemental Appropriations for
Recovery from and Response to Terrorist Attacks on the United States Act,
2002,” National Defense Appropriation Act for FY 2002, Section 8165 states:
“Of the amount appropriated by title II for operation and maintenance, Defense-
wide, $47,261,000 may be available for the Defense Leadership and Management
Program.” Although the DLAMP was mentioned in the conference report, the
report’s language did not identify appropriated funding as being only for DLAMP
use. Accordingly, the Appropriation Act did not mandate the use of appropriated
funds exclusively for the DLAMP; rather, it gave the DoD the discretion to
support DLAMP up to the amount specified.

We also noted that in Report 107-298, November 19, 2001, the House Committee
on Appropriations expressed concerns about the significant growth and costs of
the DLAMP and that the costs per student were significantly higher than


                                     4
    corresponding courses offered by public and private sources. The committee
    reduced FY 2002 program funding by $10 million and directed that DoD review
    and report back on the congressional concerns.

    Consequently, we did not substantiate that FY 2002 DLAMP authorized funding
    was less than intended by Congress.


Information Provided to GAO
    Allegation. The CPMS provided incorrect information to the GAO on the use of
    funds during a recent inquiry.

    Audit Results. We did not substantiate the alleged issue. A GAO analyst stated
    that under Project No. 350091, “Civilian Personnel Issues,” GAO visited the
    CPMS to request information about the DLAMP and how Operations and
    Maintenance funds were used for training purposes. The information forwarded
    to GAO by CPMS included answers to questions about professional military
    education including coursework, assessments, and program funding. Table 2
    compares actual budget data that we obtained from CPMS in May 2002 to
    DLAMP budget information that CPMS provided to GAO in December 2001.
    Table 2 data for FY 2002 were projected at the time provided, and do not agree
    with the final and actual FY 2002 authorized budget presented in Table 1.

     Table 2. CPMS Budget Data Compared to CPMS Data Provided to GAO
                               ($ in millions)

                                           FY 2000     FY 2001     FY 2002
                                            Actual      Actual     Projected

         CPMS Budget Data
         Amount requested                  $ 41.9      $ 48.2      $ 54.6
         Amount funded for DLAMP             36.1        45.4        60.7
         Total used for DLAMP                36.2        45.4        60.7

         CPMS Data Provided to GAO
         Amount budgeted                     36.1        45.4        60.7
         Amount used                         36.1        45.4        60.7

    As shown in Table 2, except for a minor difference in rounding for the FY 2000
    amount used, the information submitted to GAO was identical to the budget data
    maintained by CPMS budget officials. As a result, the allegation was not
    substantiated.




                                       5
Summary
   The allegation concerning the CPMS management of DLAMP and DCPDS–Mod
   program funds was not substantiated. The funding decreases for DLAMP and the
   increases for the DCPDS-Mod program in FYs 2000, 2001, and 2002 were
   executed primarily at the direction of Congress or DoD senior officials. In
   reference to the reprogramming of funds by CPMS management, the only
   instance of DLAMP program funds being reprogrammed to the DCPDS-Mod
   program occurred about 7 months after the allegation was made and was
   performed in accordance with established DoD requirements. Additionally, FY
   2002 funds appropriated by Congress for DLAMP were not exclusively
   designated for DLAMP use. As a result, we found no impropriety in CPMS funds
   management for the DLAMP during the period from FY 2000 through FY 2002.




                                     6
Appendix A. Scope and Methodology
    We performed the audit to determine whether an allegation made in an
    anonymous December 2001 call to the DoD Hotline was merited. We discussed
    the allegation with staff at the offices of the CPMS, the DLAMP, and the DHRA.
    We also interviewed personnel from the Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer.

    We performed this audit from March 2002 through April 2003 in accordance with
    generally accepted government auditing standards. We did not review the
    management control program because the scope was limited to the DoD Hotline
    allegation of funds management.

    We identified and analyzed applicable laws and regulations for Government
    funding and reprogramming of Operation and Maintenance funds pertaining to
    the allegation. We reviewed funding and budget documents related to DLAMP
    and DCPDS-Mod program funding for FY 2000 through FY 2002. We also
    reviewed administrative and program documents dated from August 1993 through
    November 2002.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    to perform this audit.

    General Accounting Office High-Risk Area. The GAO has identified several
    high-risk areas in the DoD. This report provides coverage of the Financial
    Management high-risk area.


Prior Coverage
    No prior coverage has been conducted on DLAMP funding during the last 5
    years. While several DoD Inspector General reports were issued on the
    DCPDS-Mod Program during that period, none were specific to funds
    management.




                                       7
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Human Resources Activity
Director, Civilian Personnel Management Service

Non-Defense Federal Organization
Office of Management and Budget




                                          8
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        9
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Mary L. Ugone
Wanda A. Scott
James W. Hutchinson
Adrienne B. Brown
Robin G. McCoy
Darryl D. Eubanks
Jacqueline N. Pugh
